No. 19-307

Un The
Supreme Court of the United States

SruarT A. MCKEEVER,
Petitioner,
v.

WILLIAM P. Barr,
ATTORNEY GENERAL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF SERVICE
I, Roman Martinez, counsel for Petitioner Stuart A. McKeever and a member
of the Bar of this Court, hereby certify that on the 10th day of December, 2019, I
caused to be served three (3) copies of the Reply Brief for Petitioner in the above-
referenced case by first-class mail, postage prepaid, upon counsel for Respondent as
listed below:

Noel Francisco

Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted
to the above-listed counsel at the referenced email addresses.

I further certify that all parties required to be served have been served.

Roman Martinez
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000

Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

 

By.

Counsel for Petitioner Stuart A.
McKeever
